<html>
<title> - SEXUAL ASSAULT IN THE MILITARY PART THREE: CONTEXT AND CAUSES</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
     SEXUAL ASSAULT IN THE MILITARY PART THREE: CONTEXT AND CAUSES

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2009

                               __________

                           Serial No. 111-22

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform






                  U.S. GOVERNMENT PRINTING OFFICE
53-868                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      LYNN A. WESTMORELAND, Georgia
JIM COOPER, Tennessee                PATRICK T. McHENRY, North Carolina
GERRY E. CONNOLLY, Virginia          BRIAN P. BILBRAY, California
MIKE QUIGLEY, Illinois               JIM JORDAN, Ohio
MARCY KAPTUR, Ohio                   JEFF FLAKE, Arizona
ELEANOR HOLMES NORTON, District of   JEFF FORTENBERRY, Nebraska
    Columbia                         JASON CHAFFETZ, Utah
PATRICK J. KENNEDY, Rhode Island     AARON SCHOCK, Illinois
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 ------ ------
MIKE QUIGLEY, Illinois
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2009....................................     1
Statement of:
    Valliere, Veronique, Psy.d., president of Valliere & 
      Counseling Associates, Inc.; Fred Berlin, Ph.D., founder of 
      the National Institute for the Study, Prevention, and 
      Treatment of Sexual Trauma and the director of the Johns 
      Hopkins Sexual Disorders Clinic; Elizabeth Hillman, Ph.D., 
      J.D., law professor at the University of California 
      Hastings; and Professor Helen Benedict, Author the Lonely 
      Soldier: The Private War of Women Serving in IRAQ, and 
      Professor of Journalism at Columbia University.............     8
        Benedict, Professor Helen................................    26
        Berlin, Fred, Ph.D.......................................    13
        Hillman, Elizabeth, Ph.D., J.D...........................    17
        Valliere, Veronique, Psy.d...............................     8
Letters, statements, etc., submitted for the record by:
    Benedict, Professor Helen, Author the Lonely Soldier: The 
      Private War of Women Serving in IRAQ, and Professor of 
      Journalism at Columbia University, prepared statement of...    28
    Berlin, Fred, Ph.D., founder of the National Institute for 
      the Study, Prevention, and Treatment of Sexual Trauma and 
      the director of the Johns Hopkins Sexual Disorders Clinic, 
      prepared statement of......................................    15
    Hillman, Elizabeth, Ph.D., J.D., law professor at the 
      University of California Hastings, prepared statement of...    19
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     4
    Valliere, Veronique, Psy.d., president of Valliere & 
      Counseling Associates, Inc., prepared statement of.........     9


     SEXUAL ASSAULT IN THE MILITARY PART THREE: CONTEXT AND CAUSES

                              ----------                              


                        THURSDAY, JUNE 25, 2009

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2247, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Quigley, and Turner.
    Also present: Representatives Davis and Harman.
    Staff present: Elliot Gillerman, clerk; Andy Wright, staff 
director; Brendan Culley, detailee; Steven Gale, fellow; 
Margaret Costa, intern; Scott Lindsay and Talia Dubovi, 
counsels; Catherine McKenna Ribeiro, communications director; 
Dan Blankenburg, minority director of outreach and senior 
advisor; Adam Fromm, minority chief clerk and Member liaison; 
Dr. Christopher Bright, minority senior professional staff 
member; and Glenn Sanders, minority Defense fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, 
``Sexual Assault in the Military Part Three: Context and 
Causes,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that Members who may not be on this 
committee, like Ms. Harman, Ms. Davis, who may show up, and 
anybody the minority may want to have here, be allowed to 
participate in this hearing in accordance with committee rules 
and they be allowed to ask questions of the witnesses after all 
official members of the subcommittee have their turn first. 
Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for five business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, that is also ordered.
    Good afternoon. Thank you all for being here. I apologize 
in advance for what I expect to be interruptions with votes on 
the floor. There is, unfortunately, no way that the 
subcommittee can control that, and it seems no matter how hard 
we try to plan these things without interruptions, it doesn't 
always work that way. So we mean no disrespect, I am sure the 
House means no disrespect whatsoever, and we appreciate your 
willingness to tolerate that and to provide us with your 
expertise.
    Last summer, this subcommittee began its examination of 
what we perceived as a very serious problem. We focused on the 
military's sexual assault prevention and response programs. 
Later this summer, we expect to have a new Strategic Plan from 
the Department of Defense's Sexual Assault Prevention and 
Response Office [SAPRO], as they call it, as well as a report 
from the Defense Task Force on Sexual Assault in the Military 
Services.
    So in the spirit of constructive oversight, and in order to 
prepare for those forthcoming reports, to be able to evaluate 
them in the proper context, we are taking a step back today to 
examine the underlying dynamics of this crime itself. Our 
witnesses that are here today are going to provide us insight 
into the nature of sexual assault and what factors might 
contribute to sexual violence within the military. Our goal 
here is simple: we need to become better informed about the 
causes of these vicious crimes that plague countless men and 
women both in the military and society at large.
    Unfortunately, rape is one of the most under-reported 
crimes in the United States, within both the military and 
civilian populations. Consequently, there has been little 
ability to know for certain that sexual assaults are more 
prevalent in the military or if they occur at the same rate as 
in the general population.
    What we do know is that 2,908 sexual assaults were reported 
within the military this last year, and it is estimated by some 
experts that as many as 60 percent of sexual assaults go 
unreported. If that is true, certainly, the total is much 
higher.
    But even one is too many. While most physical wounds can 
heal, psychological wounds persist. Each incident has untold 
consequences that tear the essential fabric of a civilized 
society: shattered trust and broken dreams, not to mention the 
incalculable strains on families, friendships, and careers.
    Sexual assault in the military presents a unique challenge 
to our society. It is our unwavering duty to protect the men 
and women that serve in the U.S. military. Unlike civilian 
society, we in Government have a much stronger ability to 
control the environment and the culture in which we place our 
soldiers. If there are elements of this environment that can be 
changed to better protect the men and women who serve our 
country, then it is our duty to make the necessary changes.
    While progress seems to have been made in the past year 
toward improving prevention and response programs within the 
Armed Forces, sexual assault is still a grave concern and we 
still have a ways to go. This is not solely a women's issue, 
nor is it simply an internal military problem. This is a matter 
of national security, something that all of us, as citizens who 
benefit from the protection that our troops provide, have to 
address.
    The last thing our sons and daughters should fear when they 
are putting their lives on the line to defend the country is 
being attacked by one of their own. If we can better understand 
the contributing factors that lead to sexual assault, then we 
will be better able to create policies and programs to 
effectively prevent those crimes. And, as I said, hopefully the 
information we get here today will let us better judge those 
policies that we hear about at the end of the summer and see 
whether or not they meet that standard. Our goal has to be 
nothing short of the elimination of this pernicious crime 
within the Armed Forces.
    So, again, I want to conclude by thanking our witnesses for 
coming here today and offering their expertise on the important 
issue.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 53868.001
    
    [GRAPHIC] [TIFF OMITTED] 53868.002
    
    Mr. Tierney. I yield now to Mr. Turner for opening 
comments.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank you for your leadership on this issue and for holding 
this hearing and the number of hearings and inquiries that you 
have done. This is a very serious and a very sensitive issue 
that affects our military personnel.
    I also want to thank Representative Jane Harman, who has 
been an incredible leader on this issue nationally. She has 
helped focus the troublesome issues of how people are placed at 
risk, how we can lessen the number of sexual assaults, and what 
we can do to address the victim's rights in sexual assaults 
when they do occur.
    I became involved in this issue at the behest of Mary 
Lauterbach, who is the mother of Marine Lance Corporal Maria 
Lauterbach. Maria Lauterbach was murdered after she had come 
forward with allegations of sexual assault. This occurred at 
Camp Lejeune and there were a number of things that we learned 
about after the fact that had occurred in the course of the 
investigation that we tried to address in legislation, and I 
want to thank Jane Harman again. Because of her partnership in 
this issue, in working together, we were able to identify some 
issues that we should change in our laws and things that we 
should try to advance with the Department of Defense.
    Last year, as a result of what we learned from Maria 
Lauterbach's tragic death, we were able to get two changes to 
the National Defense Authorization Act. One is that a military 
protective order would become a standing order, because, 
unfortunately, in her case, her military protective order was 
allowed to expire. Second, the law was changed to require that 
military protective orders be given as notice to civilian 
authorities, because also in her case, when she became missing 
and the local authorities were contacted, they were unaware 
that an MPO had been issued and that she was the subject of 
that MPO.
    In the 2010 Defense Authorization Act, I worked with Jane 
Harman again to try to bring provisions in that bill that would 
make a difference, and the bill that is on the floor today 
includes provisions that Jane was advancing that go to the 
issues of prevention, prosecution, and assistance to victims.
    There is also another provision that relates to the Maria 
Lauterbach case, and that is a provision that would require 
that when a military protective order is issued, that, again, 
the individual who is the subject matter of that, the victim, 
would have an ability to get information. They should be 
notified of their right to request a base transfer for their 
protection.
    In Maria's case, Mary Lauterbach indicated that she was 
told by Maria that she had requested a base transfer and that 
it had not been granted. DOD indicates they do not have a 
record of her having requested a transfer. This change would 
require that they provide notice to the subject of an MPO that 
they do have the ability for a transfer.
    This is an important issue, and every time we have a 
hearing I think we learn something different that allows us to 
move forward with changes in legislation, changes in rules to 
try to go directly to the issue of how do we protect our men 
and women who are serving, and how do we assist those who have 
been the subject of sexual assault.
    Mr. Chairman, I really appreciate your undertaking this. 
This is an important issue and we have a duty to ensure that 
our service personnel are protected, and I want to again thank 
you, Mr. Chairman.
    Mr. Tierney. Thank you. Thank you, Mr. Turner, for your 
work on this issue as well.
    With that, we are going to now receive testimony from the 
panel before us today. I will introduce each of them briefly 
before their remarks begin.
    Dr. Veronique Valliere is the owner and director of two 
outpatient treatment centers: Valliere & Counseling Associates, 
an outpatient treatment center for mental health, domestic 
violence, and victim issues, and Forensic Treatment Services, 
an outpatient violent offender treatment program. She has 
consulted and published on the treatment of sexual offenders 
and presented on the same at national and local sexual offender 
conferences. She also contributed to the report of the Defense 
Task Force on Sexual Harassment and Violence at the military 
service academies and holds a doctorate in clinical psychology 
from Rutgers University. Welcome.
    Dr. Fred Berlin is an associate professor of psychiatry and 
behavioral sciences at the Johns Hopkins University School of 
Medicine, where he serves as director for the National 
Institute for the Study, Prevention, and Treatment of Sexual 
Trauma. Dr. Berlin is a highly regarded expert on the causes of 
sexual assault and the treatment of sexual assault offenders. 
He has participated in a number of Federal and State 
government-sponsored conferences on sexual assault, offender 
treatment and management. Dr. Berlin holds an M.D. from 
Dalhousie University.
    Dr. Elizabeth Hillman is a professor of law at the 
University of California Hastings College of Law, where she 
focuses on U.S. military law and history and the impact of 
gender and sexual norms in military culture. A veteran of the 
U.S. Air Force, she has previously taught at the Air Force 
Academy, Yale University, and Rutgers University School of Law 
at Camden. She has published studies on military sexual 
violence in a number of academic journals. Dr. Hillman holds 
both a Ph.D. and a J.D. from Yale University.
    Ms. Helen Benedict is a professor at the Graduate School of 
Journalism at Columbia University. She is the author of five 
novels and five non-fiction books, including, most recently, 
``The Lonely Soldier: The Private War of Women Serving in 
Iraq.'' She has also published a number of articles and essays 
on the issue of sexual assault in the military. Ms. Benedict 
holds an M.A. from the University of California at Berkeley.
    Thank you again for all making yourselves available to us 
today and sharing your perspectives and your expertise. It is 
the policy of this committee to swear in the witnesses before 
they testify, so I would ask you all to please stand and raise 
your right hands.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that all of the 
witnesses answered in the affirmative.
    I can share with you that we have a policy of trying to ask 
folks to just summarize their opening statements. We know you 
were good enough to provide extensive written remarks, and all 
of those will be put on the record as a matter of course; with 
unanimous consent we do that. So your written remarks are on 
the record. If you would take about 5 minutes to please just 
summarize those comments, that way we can try to get to the 
Members to allow them to ask appropriate questions and perhaps 
get a little more directed information as well.
    So, Dr. Valliere, if we could please start with you, we 
will be looking forward to your remarks.

STATEMENTS OF VERONIQUE VALLIERE, PSY.D., PRESIDENT OF VALLIERE 
 & COUNSELING ASSOCIATES, INC.; FRED BERLIN, PH.D., FOUNDER OF 
THE NATIONAL INSTITUTE FOR THE STUDY, PREVENTION, AND TREATMENT 
 OF SEXUAL TRAUMA AND THE DIRECTOR OF THE JOHNS HOPKINS SEXUAL 
DISORDERS CLINIC; ELIZABETH HILLMAN, PH.D., J.D., LAW PROFESSOR 
 AT THE UNIVERSITY OF CALIFORNIA HASTINGS; AND PROFESSOR HELEN 
 BENEDICT, AUTHOR THE LONELY SOLDIER: THE PRIVATE WAR OF WOMEN 
   SERVING IN IRAQ, AND PROFESSOR OF JOURNALISM AT COLUMBIA 
                           UNIVERSITY

            STATEMENT OF VERONIQUE VALLIERE, PSY.D.

    Dr. Valliere. Thank you for inviting me today. I was asked 
to testify on some of the psychology of the sexual offender. My 
work has been with sexual offenders, and one of the things I 
wanted to highlight, especially in the context of sexual 
assault in the military, is helping to explain the pathways of 
sexual offending.
    I think we are all familiar with the idea of sexual 
deviants, like a deviant sexual arousal to prepubescent 
children, for example, but one of the things I find in my work 
that is overlooked is an understanding of the character pathway 
or what the offender carries in his personality that 
facilitates or allows sexual assault.
    And in character pathology, what we find is that there is a 
prevalence of narcissism, which is arrogant egocentricity, a 
sense of entitlement, a callousness and lack of regard for the 
impact on the victim, and an ability to exploit others for 
one's own gratification. People with this kind of character are 
throughout our society, but placed in a particular context or 
environment that both presents certain values that may decrease 
external barriers to rape, as well as issues that impact the 
victim, are very important in understanding this.
    One of the examples I think might be relevant is the 
example of prison, for example. A very antisocial criminal 
person who goes into prison, who never has a history of sexual 
assault but becomes a prison rapist, is a good metaphor to 
understand how systems create or merge or collaborate with a 
certain type of personality to present and promote the risk of 
sexual assault. If somebody becomes a rapist in prison, there 
are a lot of contextual issues, including issues that impact 
our beliefs and ideas about the victim that impact that, and 
when you have a character who has no internal barriers to 
harming others, they may find that sexual aggression is one way 
that they achieve sexual gratification, that outside this 
context they may not.
    The military is a similar system to a prison. Not to equate 
the people the same, but with the right type of character, that 
perfect storm helps. And if you have a character that is very 
narcissistic, very callous toward victims, very willing to use 
power and exploitation to meet their needs, and you put that 
character in an environment that is closed, that does its own 
investigation, that is male-dominated, and that has a hierarchy 
that puts a high delineation between those in authority and 
those not in authority, as in prisoners and the officials in 
the prison or enlisted and officers, what you find is a system 
that presents an environment that, with this callous or 
narcissistic character, adheres to and colludes with the idea 
of power being more important, a devaluation of the victim, a 
discreditation of vulnerability, a system that colludes with 
keeping things from authority, along with attitudes toward the 
victim like an S&M mentality.
    A person with a character pathology will thrive in that 
environment to engage in aggressive and assaultive behaviors, 
and if in their repertoire is the need for exploitive self-
gratification for whatever reason, they are much more likely to 
act out on that. Not only that, we all, in our environment, 
have what you have mentioned, Mr. Chairman: a societal issue 
with victimization, of secrecy, the idea that the victim 
benefits from reporting, the group mentality to protect the 
offender, all those things.
    So in the context of this system, when you have somebody 
with this character, it is important to recognize that this 
sexually assaultive behavior is a reflection of that offender's 
character and is not necessarily reliant on some professional 
identification of sexual deviance, and that those things come 
together to collaborate to increased risk for a victim or a 
vulnerable person in that environment.
    [The prepared statement of Dr. Valliere follows:]
    [GRAPHIC] [TIFF OMITTED] 53868.003
    
    [GRAPHIC] [TIFF OMITTED] 53868.004
    
    [GRAPHIC] [TIFF OMITTED] 53868.005
    
    Mr. Tierney. Thank you very much for those remarks.
    Now I have the disturbing news to tell you all that we have 
just been signaled down for eight votes, which could take 
probably 30, 40 minutes, minimally, on that. Are any of you 
going to have difficulty remaining here to respond after that? 
If you are not, we would appreciate your forbearance. Again, we 
apologize for it and we will see you back here in a half hour 
or so and proceed from that point, hopefully at that point 
without interruption for the balance of the hearing. Thank you.
    [Recess.]
    Mr. Tierney. Mr. Turner has graciously allowed us to 
proceed, even though he is not back yet.
    So, with that, Mr. Berlin, I want to thank you again for 
your forbearance and patience. I notice that you have been 
married for 39 years and are the father of four, so I assume 
that you have plenty of patience. I appreciate it. Thank you.

                STATEMENT OF FRED BERLIN, PH.D.

    Dr. Berlin. Thank you very much.
    Thanks for inviting me, first of all. Rather than simply 
summarize what I have put down that you can read, let me just 
make a couple of brief statements; perhaps just three.
    The first will sound simple, but nonetheless I think it's 
important, and that is to emphasize that any approach to 
dealing with issues of sexual abuse must be comprehensive. We 
wouldn't dream of trying to solve the multiple problems 
associated with alcoholism simply by getting tougher on drunk 
drivers or maybe putting them on some kind of a registry. Yet, 
society's approach to this problem, in my judgment, at least, 
in recent years has emphasized, correctly, criminal justice 
approach, but very little about education, about prevention, 
about the kinds of things that I feel are important.
    To really address this issue, we have to look at problems 
that are intrinsic in a system. For example, the fact there is 
a system to deter either victims and/or offenders from coming 
forward and identifying themselves and getting help. We have to 
identify vulnerable individuals and try to be of assistance to 
them. There are many people who are struggling to integrate 
their sexual needs in an otherwise productive and responsible 
lifestyle, and yet, often those people go unidentified and we 
don't see them until it is too late.
    The second point I want to make, and it is probably the 
most difficult one, particularly from the political point of 
view, is that I believe, if we are really going to solve this 
problem, we have to stop looking at this dichotomy that 
suggests that one is either concerned for victims or concerned 
for offenders. I would argue that the best favor that one can 
do a prospective victim is to keep him or her from becoming 
victimized in the first place, and we can only do that by 
learning more about those factors that predispose individuals 
to become offenders.
    I think we have made it difficult for offenders who want to 
get help before the fact to step forward. I can give an 
example, actually. The gentleman who, in his final year at a 
military academy, within the past few years was court-martialed 
and had to leave because he had begun to download child 
pornography. This was a man who knew that he had a problem. He 
desperately had wanted help, but he was extremely afraid to 
raise his hand and identify himself because of what it would 
likely have done to his military career. He knew that if he 
sought help, that might be reported to the commanders.
    And I do understand that what is best for the military has 
to come first, but it deterred him from seeking help, and he 
had to hear names like pervert and predator attached to him, 
and I can assure you that is not particularly helpful. This was 
a very nice young man who had a serious problem and yet, it is 
hard for anyone with any psychiatric issue to raise their hand 
and ask for help. It can sometimes be particularly difficult in 
the military setting, where people learn that they need to be 
tough and deal with issues, and I think particularly difficult 
for people that are struggling to try to integrate their sexual 
needs into a proper lifestyle.
    The final point I will make, and I will make it because we 
are in a legislative body, is that, in my judgment, so much of 
what has been done legislatively in recent years has been based 
on the exception rather than the rule. In other words, we hear 
about some absolutely horrible crime, a child is kidnaped, 
sexually assaulted and murdered, and, understandably, there is 
tremendous emotion, a sense that we need to do something, and 
we try to proceed to take action.
    In the example I am giving, however, which is an example of 
sexual abuse, that kind of situation represents a fraction of 1 
percent of the overall problem. So it begs the question in my 
mind that do we have the most effective public policies when 
public policy begins to be driven by the exception rather than 
the rule. There are many people who engage in sexually abusive 
acts--and I can tell you this from years of experience--who do 
want help, who will accept if it is offered to them. The 
recidivism rate, contrary to what tends to be out there in the 
public consciousness, is by no means as high as people tend to 
think it is.
    In fact, I mention in my written testimony that a study 
published by the Office of Justice Programs that looked at the 
sex offender recidivism rate as a group found it to be lower, 
lower than the recidivism rate for people who commit other 
crimes and serious offenses, and, yet, almost all of the 
current public perception and public policy is based on exactly 
the opposite assumption.
    So, again, I thank you for letting me come here today. I 
realize that some of my remarks are a little bit against the 
grain of what you may sometimes think. I assure you that I am 
very concerned about protecting victims; I know every single 
decent human being is. But until we stop demonizing all 
offenders, polarizing, acting as though all of them are less 
than human, they don't have families, they don't have people 
that care about them, in my judgment, at least, it moves us 
backward and not forwards.
    [The prepared statement of Dr. Berlin follows:]
    [GRAPHIC] [TIFF OMITTED] 53868.006
    
    [GRAPHIC] [TIFF OMITTED] 53868.007
    
    Mr. Tierney. Thank you very much, Dr. Berlin.
    Dr. Hillman.

          STATEMENT OF ELIZABETH HILLMAN, PH.D., J.D.

    Dr. Hillman. Thank you, Mr. Chairman.
    I appreciate the opportunity to be here today. I would like 
to talk a little bit about military law, which I think is part 
of the problem, as well as part of the answer, to the grim and 
important and vexing issue of sexual violence in the armed 
forces. I want to suggest that war is not the primary context 
in which American military war has been made, but rape is the 
primary context in which it has been made, and that has some 
consequences for understanding how much criminal justice can be 
part of the solution here and how much military criminal 
justice will not solve this problem for us.
    The first point I would like to make is that the effort 
that the armed forces and the U.S. Government has put into 
solving this subset of military sexual violence, that is, 
violence directed against service members by other service 
members, which is really a small part of what the larger issue 
is, but the resources we have put into that are extraordinary, 
I think. They are evidenced by the work that this committee has 
done; they are evidenced by work across the armed forces, the 
different branches of service commanding officers who have 
spoken out against this, and many different programs that have 
been initiated in the military.
    It is also evident in the doctrines of the military courts. 
Contrary to what casual observers might think, military rape 
law is not backward and behind the times. In fact, the doctrine 
of constructive force--the idea that the force required to 
perpetrate a sexual assault could be not physical, necessarily, 
but could be coercive--that came about in military courts in 
the 1950's. Likewise, the statute that governs sexual assault 
in the military has been significantly revised just a year ago. 
We have a much more complex, perhaps unmanageable, article to 
prosecute military sexual assault now compared to what we had 
in the past.
    Yet, these changes have not solved the problem, nor have 
the efforts to train and to educate service members solved the 
problem. I think part of the problem is that the culture of the 
military is linked to that law, and part of that culture and 
that law makes rape and sexual violence a norm in military 
circles, a part of authentic soldiering rather than not a part 
of soldiering.
    I think that many military legal precedents, because they 
are grounded in sexual assaults and in domestic violence, may 
create an assumption that women are vulnerable; create an 
assumption that sexual stereotypes, that racial stereotypes are 
the norm and that persons act on those in an area of sexual 
interaction and assault and coercion, and that this has a 
tremendous impact.
    I would like to suggest, then, that no matter how many 
servicewomen we have in positions of authority, no matter how 
much rhetoric we subject men and women who are in our armed 
forces to about the necessity of ending this problem, that we 
need to break that link between sexual violence and war, 
between soldiering and rape, and I think one of the ways that 
we can consider doing that is by prosecuting at least some 
sexual assaults in civilian, rather than military, courts. I 
don't think that court-martial is necessarily the right place 
for these sorts of prosecutions to happen.
    Now, the objection to that is a valid one, and that is the 
objection that it is important for a commanding officer to 
protect all of his or her troops, including those troops who 
are victims of sexual violence, those who are survivors, those 
who are perpetrators, to get them the help that they need to 
stop this from continuing to happen and to protect the civilian 
population, as well as other service members from those 
persons. That is a fundamental function of command.
    But we are already breaking that in some ways by the 
changes that we have made, by allowing restrictive reporting by 
service members who have been assaulted, by not having 
commanders get full knowledge of the accusations against 
individuals in the military who are accused of perpetrating 
sexual assaults. This is not to demonize those folks, this is 
just to say that one way we can consider trying to break that 
link between war and rape, between what seems like a trans-
historical and, in some ways, hopeless problem to solve is by 
taking the prosecution away from military courts, by making 
rape and sexual assault get prosecuted in civil courts, as the 
majority of the rapes that take place in the military are not 
specifically military in nature, it is not a crime of war; it 
is an acquaintance rape, it is a rape among young people who 
have abused alcohol, for instance.
    Many different types of sexual assault take place, but 
certainly a significant part of it is in that realm. There is 
no reason that you need a specifically military court to 
adjudicate those sorts of questions and to reach a decision 
about the guilt or innocence of a person accused in that sort 
of case.
    That is but one part of what might be a solution and a part 
of how the law that governs this area of human interaction and 
military interaction is a part of the problem. Thank you.
    [The prepared statement of Dr. Hillman follows:]
    [GRAPHIC] [TIFF OMITTED] 53868.008
    
    [GRAPHIC] [TIFF OMITTED] 53868.009
    
    [GRAPHIC] [TIFF OMITTED] 53868.010
    
    [GRAPHIC] [TIFF OMITTED] 53868.011
    
    [GRAPHIC] [TIFF OMITTED] 53868.012
    
    [GRAPHIC] [TIFF OMITTED] 53868.013
    
    [GRAPHIC] [TIFF OMITTED] 53868.014
    
    Mr. Tierney. Thank you. That was interesting.
    Professor Benedict.

             STATEMENT OF PROFESSOR HELEN BENEDICT

    Ms. Benedict. Thank you. I am very honored to have been 
invited here today.
    In researching my book, ``The Lonely Soldier: The Private 
War of Women Serving in Iraq,'' I spent the last 3 years 
interviewing over 40 military women who have served in Iraq and 
Afghanistan, along with some men, and I have also been 
examining veterans studies and surveys about sexual assault in 
military culture. I found that many women are being prevented 
from serving their country as they wish by systematic sexual 
abuse in the military.
    Soldiers commit sexual assault because of a confluence of 
several things, some of which have been mentioned here: 
military and civilian cultures, individual psychology, and the 
nature of war, particularly of the war in Iraq. But given my 
time today, I will concentrate on military culture.
    The American military has historically been a masculine 
organization deeply suspicious of women, and this has been slow 
to change. As a sergeant recently put it to me, in the Army, if 
you show any sign that you are a woman, you are automatically 
ridiculed and treated as inferior. Military language reveals 
this attitude to women only too often: drill instructors 
denigrate recruits by calling them girls, ladies, and more 
vulgar terms for women, the everyday speech of soldiers is 
riddled with sexual insults, and military men still sing 
misogynist rhymes that have been around for decades. See the 
written testimony I submitted here for an example of a Marine 
basic training song that is so violent I can't speak the words 
aloud.
    Many women soldiers have told me that they feel that the 
view of women as inferior is upheld by the Pentagon itself. As 
long as women remained banned from ground combat, the message 
is sent from the top that women are second class soldiers who 
will never earn the full respect of their comrades. This is 
extremely important when you think about sexual assault because 
whatever the motivation of any individual rapist is, a profound 
resentment or lack of respect for women is part of it.
    Women are not only seen very often as inferior in the 
military, however, but as sexual prey. An Army specialist who 
served in Iraq for 11 months said to me, one guy told me he 
thinks the military sends women over to give the guys eye candy 
to keep them sane. He told me in Vietnam they had prostitutes, 
but they don't have those in Iraq, so they have women soldiers 
instead.
    Within the military is another set of age-old assumptions 
about acts against women who are trying to find justice for 
rapes: that women invite rape, that those who report sexual 
assaults are liars intent on ruining a man's career, and that 
men must be protected from such accusations at all costs. Thus, 
a woman who tries to report an assault often finds herself up 
against a solid wall of male comradery determined to silence 
her. Some women are silenced by countercharges; some are 
physically threatened; some are punished on other charges to 
undermine their credibility; some are intimidated by the common 
view of her as weak and a traitor if she reports an assault. 
These are some of the reasons why, according to the Defense 
Department's most recent reports, some 80 to 90 percent of 
military sexual assaults are never reported.
    The suspicion of women also is revealed in the military's 
abysmal record when it comes to arresting, prosecuting, and 
punishing its rapists. In 2008, a mere 10.9 percent of all 
reported assaults went to court-martial, and among those men 
found guilty, 62 percent were given punishments so mild they 
amounted to a mere slap on the wrist.
    To even begin to change these attitudes and to fully 
integrate women so that they can serve their country without 
fear of being subjected to sexual persecution and 
discrimination, I suggest these eight reforms: end the Pentagon 
ban against women in combat, which is paradoxical and archaic--
women are in combat in Iraq--and promote more military women; 
educate all officers and enlistees to understand that rape is 
an international war crime; expel all men who are found guilty 
of attacking military or civilian women in any way in the 
military forever; increase the severity of punishment for 
violence against women to be more in line with those in the 
civilian judicial system; ban the use of sexist language by 
drill instructors; educate all officers to take as much pride 
in protecting their soldiers from harm at one another's hands 
as from the enemy; train counselors to help male and female 
soldiers not only with war trauma, but childhood abuse and 
sexual assault; and, last but not lease, we have to rescind the 
don't ask, don't tell policy, which codifies discrimination and 
is used disproportionately against women to drum them out of 
the military.
    Thanks.
    [The prepared statement of Ms. Benedict follows:]
    [GRAPHIC] [TIFF OMITTED] 53868.015
    
    [GRAPHIC] [TIFF OMITTED] 53868.016
    
    [GRAPHIC] [TIFF OMITTED] 53868.017
    
    [GRAPHIC] [TIFF OMITTED] 53868.018
    
    [GRAPHIC] [TIFF OMITTED] 53868.019
    
    [GRAPHIC] [TIFF OMITTED] 53868.020
    
    [GRAPHIC] [TIFF OMITTED] 53868.021
    
    [GRAPHIC] [TIFF OMITTED] 53868.022
    
    [GRAPHIC] [TIFF OMITTED] 53868.023
    
    [GRAPHIC] [TIFF OMITTED] 53868.024
    
    [GRAPHIC] [TIFF OMITTED] 53868.025
    
    [GRAPHIC] [TIFF OMITTED] 53868.026
    
    [GRAPHIC] [TIFF OMITTED] 53868.027
    
    Mr. Tierney. Thank you very much.
    We appreciate the testimony of all of our witnesses. Thank 
you for sharing it with us.
    I am going to yield time initially on the questioning to 
Ms. Harman. Ms. Harman has, as Mr. Turner mentioned, been on 
the forefront of this issue for considerably longer than most 
Members of Congress and many others, and has really been a 
champion of trying to make sure that we address this in a 
responsible way and stay on it until it is effectively and 
fully addressed.
    So, Ms. Harman, we recognize you for 5 minutes.
    Ms. Harman. Thank you, Mr. Chairman. Thank you. Thank you, 
Mr. Turner, for focusing the attention of the Oversight 
Committee on these issues. On the House floor, we did pass the 
DOD authorization bill. And that bill, as Mr. Turner said, 
contains some very useful language that he and I co-authored 
and tried to push DOD and the military services more about 
investigations, prosecutions, and protection. Mr. Turner gave 
me a shoutout a few minutes ago about the role that I played, 
and I just want to return the favor.
    Mary Lauterbach, whose daughter and her unborn fetus were 
brutally murdered [remarks off mic] you, Mr. Chairman. I have 
been around here a long time, and these are issues that move me 
personally [remarks off mic] put their lives on the line for 
our country. But you have been there too, and we have met 
incredibly impressive women [remarks off mic] military services 
all over the world that have the capability and, in most cases, 
who serve with great distinction [remarks off mic] really 
appreciate the testimony from all the witnesses today.
    Dr. Hillman, your testimony basically said in the military 
court system you can't find folks who will provide the justice 
we need, we have to go outside to the civilian sector, which we 
know does a much better job with this problem. I have talked 
about this issue personally to our current chairman of the 
Joint Chiefs of Staff, Mike Mullen, and to our immediate past 
Secretary of the Army, Pete Geren. All of these folks you 
wouldn't automatically think would [remarks off mic] but they 
all [remarks off mic].
    In the case of Secretary Geren, he got so passionate about 
this that he personally pushed for 5 years a project that the 
Army called, ``I Am Strong,'' the goal of which is to eliminate 
all rape and sexual assault in the Army in 5 years. He figured 
out that he had to go outside to get investigators to 
prosecute, and he did that to help train Army folks [remarks 
off mic]. I am not sure how far along his efforts are, but I am 
going to urge my colleague, John McHugh, who will succeed him, 
to take up the banner.
    So, given that, given the fact that Admiral Mullen said to 
me ``keep the pressure on'' and that Secretary Gates was 
infuriated when the head of SAPRO [remarks off mic] charged 
with [remarks off mic] doing something with respect to the 
victims [remarks off mic] was prevented to testify by her 
senior officer, given their statements [remarks off mic] should 
we give up on the military now or do you think we can change 
the culture [remarks off mic] and that is that Pete Geren told 
me that he sees this as a challenge similar to racial 
integration [remarks off mic] it is the major cultural 
challenge [remarks off mic]. So given all that, do you want to 
reconsider?
    Dr. Hillman. Thank you for the opportunity to respond. I 
wouldn't give up on the military. I have not given up on the 
military or on military lawyers or on military judges, but I 
think they need help on this issue now, and I think that 
civilians could do a better job. I actually think the parallel 
to racial integration is a powerful one. I remember when I was 
in the Air Force, I was nominated for company grade officer of 
the year. I went before the senior board and they asked me what 
the most important challenge was facing the military in the 
future, and I said handling the integration of women; and I was 
22 and I knew a lot more than I do now, at least I thought I 
did then. Anyway, I agree that it is a huge problem.
    I will say that the racial challenges of prosecuting sexual 
assault remain in the military. Capital defendants in the 
military are predominantly African American, those on death row 
are predominantly African American, the high-profile sexual 
assaults are predominantly prosecuted and have been against 
African Americans. It is not a place in which racial equality 
has resonated across military justice.
    Ms. Harman. My time has expired, but I think it is a 
challenge that military leaders are taking on, and I think 
there are ways to do much better. This is a bright spot, I 
think, in a couple of committees in this Congress, one of which 
is this one, and I just want to conclude my testimony by 
thanking you both for the attention you are paying to this and 
will pay to it. If you are prepared to make the ultimate 
sacrifice for your country, your country has to be fighting for 
you.
    Thanks very much.
    Mr. Tierney. Thank you, Ms. Harman.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. I also want to 
recognize Ms. Davis, who has joined us, who is the head of 
Personnel Subcommittee on Armed Services. Ms. Davis 
incorporated in her [remarks off mic] thank you for that. That 
is the bill [remarks off mic] talking about earlier and 
included provisions that hopefully will make a difference.
    One of the things that I find really an opportunity in this 
topic is that although each case or circumstance may be unique, 
the issue of how it is handled comes up to the issue of 
culture, rules, and regulations and gives us a picture at times 
of things that we need to change. In a lot of our cases we were 
very surprised to find that the military protective order that 
had been issued had been allowed to lapse solely out of 
neglect, which led us to these should never lapse; it led us to 
the locals did not know that a military protection order had 
been issued. So when she came up missing and the police were 
called, they had no information whatsoever that there was 
someone else that they needed to check with.
    The issue today that we have of the ability of someone who 
is the subject matter of a military protective order to 
transfer, where some of the people who are involved in the 
military protective order don't even have the appropriate 
information or the channels as to ``how do I transfer?''
    It is so different in a military setting because we have 
custodial care of the individuals that are involved. If someone 
deems it that their work environment is unsafe and they are not 
in the military, they can quit their job, they can move out of 
town. They have freedom of movement, something that you lose 
once you have committed yourself to the military. So a lot of 
the things that we learn relate back to how do we change the 
rules and regulations to ensure protection and safety and 
prosecution.
    But in looking at these, we still come back to the issue of 
culture. I am going to ask you each to speak about that for a 
moment, because the thing that is stunning to me is that it 
appears, even when you don't have a tragedy as in the 
Lauterbach case, where Maria came forward and made allegations 
[remarks off mic], that even if a woman does not have a safety 
issue, even if she comes forward and makes the allegation of 
rape and ultimately her life is not as at risk as Maria's was, 
there is still a tremendous career price to be paid. 
Frequently, if a woman comes forward, it is not merely that she 
has had the tragedy of the sexual assault that has occurred, 
but then there is the issue of how, in the military, it affects 
her career, and that is again something that you don't have in 
the private sector. In addition to freedom of movement, a woman 
in the private sector who is a victim of sexual assault, no one 
is ever going to say, well you are not going to be as good of a 
lawyer, you are not going to be able to pursue your career with 
vehemence, and her ability to continue to pursue her career is 
un-impacted.
    I wonder if you would talk for a moment about the issue of 
culture and any of the issues that you might be familiar with 
with rules and regulations, because those are the ones that we 
can impact. I think the cultural issue is really important. How 
do we address this culture not just for prevention, which is 
incredibly important and we need to address, but when a sexual 
assault claim has been made, that individual is up against a 
culture that is either not necessarily supportive of their 
coming forward, but is also subject to a culture that I think 
they could be paying a price in their career. I would like your 
thoughts on that. Whoever would like to speak first.
    Dr. Valliere. Well, I wanted to say that you are absolutely 
right, but this particularly military culture completely 
magnifies everything that women, or any victim, and I will 
include male victims of sexual assault, because as there is no 
room for female victims of sexual assault in the military, 
there is even less for male victims of sexual assault. But this 
culture incredibly magnifies what we find. As I said, it is a 
closed system. There is a return to the assault environment, 
there is reliance on that particular community; whereas a 
woman, not only do they have freedom of movement in the outside 
world, they have freedom to change support systems, which they 
do not in the military.
    The other thing is there is an increased perception of 
benefits for false allegation in the military that I have 
noticed and there is an exacerbation of the idea that all of 
these are non-stranger rapes, which are very hard to prosecute 
generally, but extra hard to prosecute in the military as well.
    Ms. Benedict. I would like to add that I think that on the 
level of the enlisted, where comradery and proof of loyalty is 
paramount, we are not going to be able to change the conception 
that anybody who tattles on anybody else about anything is 
somehow a traitor. But I think it can come from the command. I 
have seen studies of this and I have also heard many troops 
testify to this to me, that when a commander of a given company 
or platoon or even down to a squad had the attitude that the 
way he or she keeps his platoon looking good and his career 
looking good is by following injustice and prosecuting and 
doing the proper things to protect his or her troops. It can 
make a huge difference to how much sexual assault actually 
happens and to how the troops treat each other every day.
    But if the command is one of those who prefers his 
reputation squeaky clean by covering up any kind of wrongdoing 
and turning a blind eye, then the opposite happens. And this is 
a choice that a commander has, which kind of commander to be, 
and I think we can address that through education in the 
academies and through education of commissioned officers as 
well.
    Dr. Hillman. Mr. Turner, I think it is a great point about 
what to do with those persons who are able to come forward and 
try to prosecute and initiate investigations of sexual 
assaults, what happens to them afterwards. I think it is 
possible, though, to integrate their experiences into the 
broader military culture, and here is why I think that is so. 
War is about survival in many ways. We want our soldiers to be 
able to handle things that are difficult and come through on 
the other side. What could be more difficult than surviving 
this sort of trauma, standing up before it, letting everybody 
know that it happened, and then working to resolve that?
    I actually think a part of this is connected to our larger 
issues about mental health for service members and for 
veterans, and that we need to recognize that those persons who 
experience trauma can and in fact often do survive and are 
resilient and come back more powerful; and that is a cultural 
part of the armed forces and of our military culture that 
commanding officers need to not only do the right thing in 
terms of prosecuting and establishing a culture, but integrate 
stories of surviving incidents like this and standing up to 
prosecute them into the larger training environment of military 
life.
    Mr. Tierney. Thank you. Thank you, Mr. Turner.
    Ms. Davis, I want to first congratulate you on the work 
that you did on this bill, particularly with regard to this 
issue, and the work that you have had on an ongoing basis on 
the entire matter on that and give you an opportunity to 
question the witnesses.
    Ms. Davis. Thank you so much. I am very sorry I wasn't able 
to be here for your testimony. I had a chance to look over a 
few of your statements, however, so I wanted to have a chance 
to ask you a few questions about that. I just appreciate the 
fact that you are talking about resilience here as well, and I 
think that what we are seeing in the military is that there are 
some families and there are some men and women who are able to 
take out of their experiences something that makes them 
stronger; whereas, others, as we know and we would assume, with 
the kind of adjustment problems that they have returning, but 
there would be some major troubles ahead trying to figure out 
how do you mitigate that for folks and how do you really 
support the resiliency. And it is a difficult question, whether 
we are dealing with sexual abuse and trauma or not, and that is 
something that really has to be dealt with.
    I was also interested, and I think that this is probably to 
Professor Benedict, you mentioned what can we do, how can we 
help with this, and I think talking about the culture. One of 
the things that we heard at a hearing, this is pretty common-
sensical, I think, is that in some ways, in the military, you 
have what is considered a toxic mix of sorts.
    You have a lot of very risk-prone individuals who go into 
the services. We know 20 percent of the population essentially 
is fit physically, mentally, and goes into the services, and of 
that group a large number of people, as kids they were more 
ready to jump out of trees and take risks than other folks 
might be. So you have some of that. You also have the 
possibility that more women, according to some of the 
statistics, have had prior sexual trauma in their lives who go 
into the military. I don't know whether that is something that 
you all have found in your research or not, but if that is the 
case, then there are some possibilities there that might not be 
in other groups of individuals, and I wondered if you could 
comment on that.
    Then going to some of your issues that you raised, I think, 
partly about the language that is used in training. That 
certainly plays a role. Is it an overwhelming role? Does it 
change people? Are people who are more apt to see women in that 
light, it is only confirming for them but maybe not necessarily 
life-changing for them. I wanted to have you talk a little bit 
about banning the sexist language of drill instructors, that 
issue, and also then just the penalties inherent in that.
    One or two other quick questions. You just touched on it a 
little bit. How do we, within the services, use the ability to 
work well with the troops in this area as a career enhancement 
merit? And I don't know that you can necessarily say that if 
you haven't had to deal with this in your command, that 
therefore you are glossing over or you are avoiding it.
    But, on the other hand, we ought to do something in the 
career path and in rewarding people who deal well with it. It 
ought to be just like a whole lot of other criteria that are 
used in terms of how you really evaluate the command. We have 
raised that on a number of occasions with the military and they 
basically say that, you know, it is really part of what we look 
at. But there may be something special that you have 
encountered that you could suggest, a better way of actually 
assessing the extent to which those in command are doing OK 
with this or actually educating their troops.
    Ms. Benedict. Thank you very much for all the questions and 
bringing to mind several things that I wish I had a chance to 
say that I can now.
    About the statistics, there were two really important 
studies, one done in the Army and one done in the Marines, that 
showed that about half of the men who enlist were physically 
abused as children and half the women were sexually abused, and 
many were both. So we do have a large population of the 
military who enlisted to escape violent homes.
    Therefore, they are coming into the military with problems, 
which is why I mentioned very briefly that we need counselors 
within the military, on the ground, in Iraq with them, not only 
the combat stress counselors we already have in place, but 
people who are trained to deal with childhood sexual trauma as 
well as whatever happens in the military to people to help 
them.
    This goes to Dr. Berlin's point to help them before they 
start acting out, because there have been studies that have 
shown abused men often turn into abusive men. Not always, but 
often. So that is one way we could acknowledge that is an issue 
in the military and we can try and address it and stop it 
before it starts to become part of the problem.
    Language, we do have a precedent. I mean, drill instructors 
are already banned from using racist ways and from cursing, so 
we have already done that. So I think it should be accepted to 
be able to say you can no longer call recruits by these 
denigrating words for women. And, in fact, it doesn't make any 
sense to put down recruits by calling them ladies, when some of 
them are ladies. That is archaic and needs to go.
    The last thing, I know I am not going in order here, but, 
oh, yes, civilian culture. Part of training in boot camp, basic 
training, a great deal of it is about dismantling the civilian 
inside a recruit and building up a soldier instead. Some of the 
things that are dismantled I think are rather precious and it 
is too bad, but part of civilian training that we all get is a 
derogatory attitude toward women. So perhaps as part of 
breaking down the civilian and building up the soldier, it 
could be breaking down disrespect for women and building up 
respect instead, seeing women as comrades instead of as sexual 
prey.
    And, finally, it occurred to me as I was speaking before 
that this idea of rewarding commanders who do followup justice 
for the victims in their command would be a splendid way to go 
about it, to acknowledge that they have done the right thing; 
not just to punish those who intimidate, which I think should 
be done too. I think there should be consequences with 
commanders when women are shut up, but rewarding those who do 
pursue the case and stand up for those who have been abused in 
their command.
    Mr. Tierney. Thank you.
    Thank you, Ms. Davis.
    Dr. Valliere, let me ask you, you mentioned some of the 
traits that one might likely find in a perpetrator on that, and 
others have mentioned that as well. Are we doing enough to try 
to screen recruits to identify some of these indicators and 
then to try and begin counseling at that stage or setting up 
barriers to people that we know are going to be a problem, or 
can we identify people and identify that they are so likely to 
have a problem that we ought to do something about it at that 
stage?
    Dr. Valliere. I don't really know what the screening 
process is, but I do know that when we refer back to culture, 
there are things in this military culture that actually 
encourage. When you have an us-versus-them mentality, you 
encourage callousness toward victims, especially if they are 
the enemy.
    But along with what Professor Benedict says, I think the 
disregard and the disrespect for women isn't really ultimately 
a disregard for women, but it appears as a disregard for women 
because we devalue vulnerability and we condition in this 
culture to overvalue power, overvalue dominance, and overvalue 
some of the character traits that, when they are adapted, they 
may be successful tools in the military. So part of when you 
talk about breaking down the civilian, you are also encouraging 
this idea that vulnerability equals weakness; and, in our 
society, weakness equals women, so there is this big 
attachment.
    So one of the things there may be in terms of the education 
to educate some flexibility in that idea, some idea of honoring 
vulnerability and some flexibility. It is the personalities 
that are so criminal and narcissistic and callous that out of 
the context where they are useful they are not flexible. So you 
have a general callousness and entitlement and arrogance 
through the unit, as well as in a particular situation where 
those things might be necessary, say in a clinical setting with 
a surgeon. You have to have those characteristics of being 
confident and not get caught up in the emotion of it, and that 
has somehow gotten distorted with some of these personalities.
    Mr. Tierney. Dr. Berlin, you mentioned that you thought 
that we sometimes legislate the exception, as opposed to the 
rule. Can you help us out with that? Show us where do you 
specifically point to on that regard and what might we do to 
change that?
    Dr. Berlin. Well, again, I want to make it clear. My area 
of expertise is simply in the area of sexual disorders and 
offenders in general, so I am not as well versed as some of you 
folks are in the military specifically. But examples have to do 
with the fact that most child abuse, for instance, is committed 
by people who are well known to the child, family, 
acquaintances, and yet, much of the legislation in the general 
public of reporting, of identifying individuals is centered 
around the idea they are somehow going to be unknown to others.
    I think the broad brush approach that is out there is 
another example of what I am talking about. Years ago, when we 
first started the so-called war on drugs, and I am talking back 
in the 1970's, people could get a 50 year sentence for an ounce 
of marijuana because we didn't make distinctions about the 
various subgroups of people that existed who had difficulties 
with drugs.
    Well, we have people now who are identified on registration 
lists as offenders who have looked at pictures and have never 
had a contact offense. Now, if there is evidence that this is a 
predisposer to contact offenses, that is one thing. But, if it 
isn't, we have to keep in mind that when we identify someone on 
a registry, we identify their family, we identify their 
children.
    I don't want to get too much into anecdotes, but I had an 
example of a man who came in, the teacher was meaning well and 
reading out the list of people who had been registered 
offenders, and everyone turns to this one kid in the class and 
says, is that your father, and, by the way, were you the 
victim? Something that was intended to protect somebody who 
created all sorts of harm.
    So just as with drug addiction, alcoholism and so on, there 
are huge distinctions, there are huge variabilities that I 
think we have to have laws that are going to take that into 
account and not this sort of throwing everything at everybody 
as though it is all the same. That is what I meant by what I 
said.
    Mr. Tierney. Thank you.
    Dr. Hillman, you mentioned that some of the current 
regulations that we have regarding this are unmanageable in 
some respects, or you fear they might be. Could you elucidate 
on that a little bit?
    Dr. Hillman. The new Article 120 of the rape statute in the 
Uniform Code of Military Justice has not had much time on the 
ground for us to get a lot of evidence about it, but it sets 
out some 14 different crimes that used to be prosecuted under 
the general article of the UCMJ, Article 134 and now specified 
under Article 120, and we don't have a depth of jurisprudence 
on how those are going to be worked out, what standards will be 
applied, what sorts of crimes will end up under that statute.
    Now, the attempts to codify and discuss are a good thing, a 
continued modernization of a system that has been modernized 
since World War II with the UCMJ, but it is part of what Dr. 
Berlin is talking about, it sweeps a tremendous amount of stuff 
into one umbrella, Article 120, what used to be the rape and 
carnal knowledge statute, that it is not clear it all comes 
from the same place or that the solutions are in especially 
aggressive prosecution.
    More attention to deterrence, more attention to eliminating 
the workplace environment issues that actually Mr. Turner 
talked about, too, that are distinctive to the military, that 
is, the military is both workplace and home place for many 
persons, and it is not a place that people can opt out of 
easily, and to sweep all sorts of things, indecent exposure and 
access to materials and all the pornography offenses that are 
charged under that particular statute risks aligning the 
differences between things that are demonstrably different.
    Mr. Tierney. Thank you. Maybe we have to revisit that. We 
will certainly consider that.
    Mr. Turner, would you like to ask further questions?
    Mr. Turner. Well, again, I would like to thank each of you 
for your testimony. A lot of the testimony that we have that 
concerns the military is anecdotal, and I want to make it clear 
just for one footnote that even though we are pursuing this 
issue, sexual assault in the military, how do we address it, 
how do we do prevention, prosecution, and safety, how do we 
address culture, policy, and laws.
    I wouldn't want anyone hearing this to get the mis-
impression that anyone believes that there is something 
inherent to the military that is causing or is--our view is not 
that we are prosecuting the military in raising this issue; we 
are raising an issue that addresses the issue of men and women 
who are in the military.
    When you pick up an issue that is what has happened to an 
individual or you look at culture, we are not here saying that 
the military is a bad place or that there are bad people there, 
but there are some times, even with good people, bad things 
that happen when you have a significant population such as in 
the military. The issues that we had talked about before of 
custodial possession of the people who are in the military, the 
close proximity, are things that also exacerbate the issue or 
things that we need to address in our laws.
    I think sometimes when we talk about this, someone can get 
the impression that you pick up an issue that is a bad issue, 
that you want to go and figure out how to deal with it, how to 
address it, how to resolve it; you are not using a broad brush 
to paint the entire institution of people who are serving their 
country in the military.
    I have participated in a lot of these and I have a 
particular memo that I want to share with you, that I have 
shared in every hearing that I have participated in, and it 
gets right to the issue of culture. In culture, we have 
anecdotal stories. It is hard for us to pick up a culture and 
examine it. We can examine a policy; we can examine a law, 
rule, or regulation. But culture is a hard thing to ascertain. 
I am going to read to you an answer that was sent to me by 
Lieutenant General [remarks off mic], U.S. Marine Corps, 
Director of Marine Corps Staff, in a series of responses to 
questions I asked about the Lauterbach [remarks off mic].
    When Maria Lauterbach was murdered, there was a press 
conference that occurred and there was a statement that I found 
troubling that seemed to indicate that the Marine Corps had no 
notice or no knowledge that she could be at risk, that her 
safety was a concern because there had been no violence that 
she had reported. Well, she reported sexual assault, and that 
is inherently violent. So that was very troubling to me, and I 
thought that if I asked a straightforward question to the 
Marine Corps, that I would get a straightforward answer that 
culturally would give us all a nice cleansing breath with 
respect to that, the implications of sexual assault on 
violence.
    So I asked this question: ``Doesn't a rape accusation 
inherently contain an element of force or threat?'' And this is 
the answer I got: ``As defined in Article 120 of the Uniform 
Code of Military Justice, rape is defined as the sexual 
intercourse by a person executed by force and without the 
consent of the victim.'' Then they go on to apply the specific 
facts of this case. They say, in May 2007, when Lauterbach 
formally made allegations of rape, the command was only made 
aware of two reported sexual encounters, one sexual encounter 
characterized as consensual by Lauterbach and the other alleged 
by her to be rape. Lauterbach never alleged any violence or 
threat of violence in either sexual encounter.
    Now, that, to me, is an issue of culture. We even have the 
citation of the law. This is rape. Threat or threat of force of 
rape. Then we have facts that are applied, then we have policy, 
and out comes this cultural statement that Lauterbach never 
alleged any violence or threat of violence in either sexual 
encounter, one of which, in this answer, they identified as 
rape. I think that gives us a window to culture and that is why 
this has been such an important issue for me on the cultural 
side. I wonder if you would want to comment.
    Dr. Valliere. I guess I don't hear any criminalization in 
the military in what you are saying, but the reality is this is 
a particular culture, it is a culture that is defined by 
different boundaries, rules, systems, hierarchy, prosecution, 
and what personality it attracts. In my testimony, I equated it 
similar to a prison culture, but we could also equate it to a 
college fraternity culture in which there are certain cultural 
challenges and certain aspects of that culture that not only 
attract certain personalities that can be problematic, but 
separate the victim from certain types of resources that they 
might otherwise have.
    So it takes all the stereotypes, myths, everything we have, 
including the socio-cultural elements of male domination, 
degradation of women and vulnerability, the group psychology 
and it magnifies those and offers us particular challenges in 
not only the, like I described as the collusion and 
collaboration of the environment with a certain personality to 
create an offer, but then a certain collaboration with the 
offender to protect them from prosecution and to separate the 
victim from their supports.
    Dr. Berlin. I think your example also demonstrates the 
tremendous need for education. Here is somebody who is equating 
physical force with violence and doesn't understand that a 
violent act can occur even absent an actual physical act, and 
these are things that can be taught. It doesn't mean everyone 
is going to get it, but if you don't at least make the effort, 
some people who would have gotten it don't. So I think we are 
hearing something about culture that is based on a failure to 
understand and appreciate properly, and the importance of 
education in that, it seems to me, is obvious.
    Dr. Hillman. I think that it is not a demonization of the 
military to recognize that we put service members in harm's way 
in a way that subjects them to emotional and mental stress that 
can have extraordinary consequences. The worst war crime in 
American history, the My Lai massacre, the mother of one of the 
perpetrators [remarks off mic] not a victim of that crime, the 
perpetrator [remarks off mic] she said they took a good boy and 
made them a murderer about her son, as having been recruited, 
having been drafted, actually, and served in the Army.
    To say that soldiers are made more likely to be rapists is 
a very challenging thing to say, but there is no doubt that the 
sorts of [remarks off mic] consequences of being asked to do 
things that we are asking soldiers to do puts them at risk of 
behavior that they would in fact disown, that we deserve to 
give them support for recovering from, and that is a real part 
of understanding this problem in the military.
    Ms. Benedict. I would like to add [remarks off mic] I 
actually did address this already in my testimony, but when I 
was interviewing women who had been serving in Iraq, I didn't 
go into this looking for stories of sexual assault. I didn't 
even know that is what I would find, but that is what I heard. 
When they described their everyday lives to me, I felt as if I 
was reading about a fraternity from 1940.
    Attitudes toward rape are archaic, and your example 
illustrates that. It can be fixed with education, but there has 
to be a willingness to hear it. There is still a pervasive idea 
that women are really good for nothing but sex and that rape is 
just sex, with the women regretting it afterwards, and many of 
those other old-fashioned ideas that have been used to dismiss 
rape as a serious crime and to dismiss women as serious 
soldiers.
    Mr. Tierney. Thank you.
    Ms. Davis, do you have any further questions?
    Ms. Davis. Perhaps this is a difficult one to ask you right 
on the spot, but one of the things that we have spoken about is 
what kind of messages, what kind of education is really 
helpful. Having watched a few of the videos, I was struck by 
the fact that I didn't think they were very compelling and 
wondered whether the men and women in the field were a part of 
putting those together, because I think what they might see and 
the way they might say it was different. I was reminded of the 
teen pregnancy messages years ago. Adults were creating them 
and young people were looking at them and saying that wouldn't 
make any difference to me at all, but if you tell me I can't go 
out Saturday night. Those kinds of things.
    And I am just wondering, have you seen any of the videos or 
the messages that are out there and do you have a sense of 
critiquing? If someone asked you what would you like to sort of 
stay in a kid's head [remarks off mic] and I appreciate what 
Mr. Turner was saying. I don't think any of us here, and 
certainly my experience has been this is not to say that the 
military is doing something which is counter to our values, 
necessarily, but we know that at the same time they are forced 
to create some values in the services because they are asking 
kids to do extraordinary, almost superhuman things. So it is a 
different way of managing one's emotions and one's physical 
prowess and all kinds of other things.
    But what do you think should be out there? What is the 
message in a way that you would like to see the military 
developing as a foundation for their messages?
    Dr. Valliere. One of the things, there are two main 
components that we see not only just for the military, but one, 
we really lack very good education on respectable, healthy 
sexuality, whether it is in the military or not, and that is 
even further exaggerated in these subcultures that are male-
dominated. So we need to talk about that, how to be together 
and have sexuality, as well as educate for an intolerance of an 
exploitation of that.
    The other thing we need to start educating is not just how 
not to be a victim, but how not to be an offender. What is 
consent? What is consensuality? What is exploitation? As well 
as there is a big movement in the public sector to educate 
about bystander apathy; basically, how to break that group norm 
when you are encountering sexual violence so that there is no 
collusion within the group to protect the offender, like in a 
fraternity or something like that.
    Dr. Berlin. Well, just briefly, since we are getting late. 
I think you touched on this earlier. We need to train people to 
be able to be violent in a controlled way, but we may also have 
to train them how not to lose their compassion, the sense that 
this woman is somebody's sister, this isn't just some object. 
So maybe we can do more in the process of instilling what needs 
to get into a soldier to be careful to instill, or at least not 
take away, some of the other human qualities that are so 
important to be preserved.
    Dr. Hillman. I have seen some of the training materials. 
Some of them I think are very effective and some trainers are 
very effective, and others are not. I think the services are 
capable of sophisticated programs. The recruiting presence of 
the Army online, for instance, is an extraordinary marketing 
success, I would say. So it is clear that it is possible to 
reach, and I think it is mostly young people who would be the 
primary audience that we would find receptive to all these 
sorts of training.
    I would also say that the policy messages that we send 
about consensual sexuality are critical to ending the 
criminalization of consensual sex in the military is a part of 
this answer, too; ending the don't ask, don't tell policy; 
ending the criminalization of adultery absent aggravating 
factors. Those are critical to changing attitudes toward what 
really does constitute inappropriate criminal sexual behavior.
    Ms. Benedict. I have to go back to my original point about 
the message from the top. As long as women are still being 
banned from certain jobs, especially from ground combat, which 
is sort of the essence of soldier in most people's eyes, they 
are still going to be seen as second-class, and I think the way 
to change attitudes in the military is not so much through 
trying to get men to see women as fellow human beings through 
abstract ideas, it is to give women the chance to win the 
respect and to have the power and to have the positions so that 
they really are equal, so that they are in command, so that 
they have real authority. And this is happening more, but women 
are still vastly outnumbered. But that is what works in the 
military; everybody has to win respect themselves.
    And the trouble with the education that we have just been 
talking about is that there is a danger of condescension in it, 
there is a danger of looking at women as, well, we have to make 
allowances for them. And I have never met a single military 
woman who can stand that. So promotion and reexamining the 
Pentagon's ban against women in combat, I think that is 
essential.
    Mr. Tierney. Well, thank you, Ms. Davis.
    Thank all of you once again. Not only did you give us good 
and extensive testimony here today that we appreciate, but you 
have submitted written remarks and there are volumes of works 
that you are responsible for, very credible works that we 
appreciate and people have access to as well. We all have the 
list of things that you have reported on this subject, so I 
believe what you have said today and what you have written will 
be helpful as we assess whether or not there is recourse to 
come back at the end of the summer really to address and the 
way that we need to address this important issue.
    Thank you for being here, thank you for your patience and 
the work that you do. Thank you to my colleagues. This meeting 
is adjourned.
    [Whereupon, at 4:59 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
